            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION

   PERFORMANCE MEASURE REVIEW:
   RELIABILITY OF THE DATA USED TO
   MEASURE PUBLIC KNOWLEDGE OF
        THE SOCIAL SECURITY
           ADMINISTRATION

    February 2002       A-02-01-11015



EVALUATION REPORT




                    .
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
  o   Promote economy, effectiveness, and efficiency within the agency.
  0   Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
  0   Review and make recommendations        regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
  0   Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM
Date:      February 7, 2002                                                  Refer To:

To:        Jo Anne B. Barnhart
           Commissioner

From:      Inspector General

Subject:   Performance Measure Review: Reliability of the Data Used to Measure Public
           Knowledge of the Social Security Administration (A-02-01-11015)


           Following consultations with congressional committees, the Office of the Inspector General
           agreed to review the Social Security Administration’s (SSA) performance indicators over a
           continuous 3-year cycle. We recently completed our first 3-year cycle. In conducting this
           work, we used the services of an outside contractor, PricewaterhouseCoopers (PwC), LLP,
           to assist us in our efforts.

           For this report, we used PwC to conduct the review of one of the Agency’s performance
           indicators related to the public’s knowledge of SSA. The objective of the review was to
           assess the reliability of the data used to measure the level of public knowledge of SSA.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                          James G. Huse, Jr.

           Attachment
Evaluation of Selected Performance
Measures of the Social Security
Administration:

Reliability of the Data Used to Measure Public
Knowledge of SSA

Office of the Inspector General
Social Security Administration
INTRODUCTION

To evaluate the 11 performance indicators identified by the Social Security
Administration (SSA) in its Fiscal Year (FY) 2001 Annual Performance Plan (APP),
PricewaterhouseCoopers, LLP (PwC) was contracted to determine whether:

q   Performance data used to calculate measured values for comparison to SSA’s
    performance goals were complete, accurate, reasonable, consistent, and reliable;

q   Performance data was properly calculated and reported;

q   Key automated and manual internal controls related to systems and processes used
    to calculate and measure performance were adequate; and

q   Performance measures were meaningful and in compliance with the Government
    Performance and Results Act of 1993 (GPRA).

This report is one of five separate stand-alone reports, corresponding to the following
SSA process and performance measure (PM):

q   Percent of public who are knowledgeable about Social Security programs (PM #11)
       FY 2000 Goal: 65 percent

This report reflects our understanding and evaluation of the process related to PM #11.
To achieve its strategic goal “To strengthen public understanding of Social Security
programs” SSA has developed several strategic objectives. One of these objectives is,
“By 2005, nine out of ten Americans will be knowledgeable about the Social Security
programs in five important areas:”

q   Basic program facts;
q   Financial value of programs to individuals;
q   Economic and social impact of the programs;
q   How the programs are financed today; and
q   Financing issues.

One of the performance indicators cited in the plan is “Percent of public who are
knowledgeable about Social Security programs.” This indicator will be considered
achieved if 65 percent of the public surveyed are knowledgeable about Social Security
programs. SSA’s FY 2001 APP contains one performance indicator developed to meet
this objective as follows:

q   Percent of public who are knowledgeable about Social Security programs - This
    indicator will be considered achieved if 65 percent of the public surveyed obtain a
    passing score on the survey


                                             1
We performed our testing from September 21, 2000 through February 15, 2001. Our
engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland. The
procedures that we performed were in accordance with the American Institute of
Certified Public Accountants’ Statement on Standards for Consulting Services, and are
consistent with appropriate standards for performance audit engagements in
Government Auditing Standards (Yellow Book, 1994 version). However, we were not
engaged to and did not conduct an audit, the objective of which would be the expression
of an opinion on the reliability or accuracy of the reported results of the performance
measures evaluated. Accordingly, we do not express such an opinion. Had we
performed additional audit procedures, other matters might have come to our attention
that would have been reported to you.

BACKGROUND
This indicator has been created to measure the percent of the public who are
knowledgeable about Social Security programs. The goal during FY 2000 is to have 65
percent of the public knowledgeable about SSA programs. SSA measures public
understanding by conducting an annual survey. Below is an overview of the Public
Understanding Measurement System (PUMS) survey.

Survey Objectives

PUMS is an annual survey conducted by SSA and its contractor, designed to determine
what percent of the public is knowledgeable about SSA and the services it provides.
The first year of the study established a baseline knowledge indicator that has been
used in following years to track changes in the public’s knowledge of SSA and its
programs. Specifically, this study aims to measure:

q   To what extent is the public’s knowledge based on public education programs and
    products developed by SSA?
q   What sources does the public use to obtain information on Social Security?
q   How does the public prefer to receive information about Social Security?
q   How easy and useful are the Social Security Statements?


Although not the data source for this Performance Measure, an additional study, Moving
the Needle (MTN), was performed to further evaluate the effectiveness of various forms
of public education and outreach efforts in raising public awareness and knowledge of
Social Security. SSA anticipates using this information to design annual public
education programs, which would target specific knowledge or performance gaps.
Ultimately, it is expected that results from this survey will assist SSA in achieving the
target goal that at least 90 percent of the public will be knowledgeable about SSA and its
services by 2005.

Sample Design

The PUMS surveys have employed a stratified probability sampling design, where strata
are defined based on SSA regions. Specifically, list-assisted Random Digit Dialing

                                            2
(RDD) samples are selected to secure a minimum of 400 interviews in each of the 10
SSA regions.

The sampling design for the MTN involved a 2-stage process. In the first stage, 32
geographic areas were selected, reflecting population groups with the greatest potential
for improvement with respect to knowledge of SSA services. These 32 areas were then
paired based on demographic information to form 16 pairs of control-treatment groups.
Upon consultation with SSA, eight of these pairs were retained, from which RDD
samples of households were selected for participation in the survey. Prior to the survey
administration, various methodologies were used to increase the knowledge of the public
regarding the SSA services in each of the eight test areas.

Questionnaire Design

The PUMS questionnaire was developed with collaborative efforts from SSA, SSA’s
contractor, and other experts. The survey instrument consisted of questions dealing with
the following three areas of inquiry:

q      Public knowledge
q      Sources of social security information
q      Demographic information


In designing the questionnaire, SSA proposed a set of knowledge metrics that was
tested in nine focus groups, which consisted of three age, income, and geographical
groups. The Office of Communications (OComm) and Office of External Affairs
conducted these focus groups in April of 1998. Consistent with Office of Management
and Budget (OMB) restrictions, fewer than 10 respondents participated in each focus
group. Following the focus groups, SSA provided all related materials to its contractor
for their review. Senior researchers at the National Academy of Social Insurance also
reviewed the measures.

Once essential knowledge indicators were identified, a scoring process was established
to capture the trend in the public’s knowledge. Specifically, it was decided to assign an
equal measure of importance to each of the 23 awareness questions, with anyone
scoring a 70 percent or higher identified as “knowledgeable.” It should be noted that 1 of
these 23 questions could secure 4 possible points, making the total possible points
be 26. Ultimately, however, only 19 of the questions were used to measure knowledge,
as 4 questions, including the 1 with a 4-point possible score were eliminated from the
calculations. The following table, reproduced from the contractor’s report1, summarizes
the evolution of the knowledge metric. Note that the contractor report did not explicitly
define the question types shown below.




1
    The Gallup Organization, PUMS Survey Technical Report, March 11, 1999, page 11.
                                                       3
                Table 1. Evolution of the Knowledge Metric for PUMS-I

                               Initial Design, prior   Post Data Reliability    Further
      Question Type
                                to Data Collection          Analysis           Revisions
    Concept questions                   22                      21                17
   Unaided awareness                     4                       4                 0
    Aided awareness                     18                      17                17
 Specific factual questions              4                       2                 2
       Total Points                     26                      23                19

For the most part, the questionnaires for PUMS-I and -II have remained unchanged, with
the exception of a new section that was added to the PUMS-II survey. Starting with
PUMS-III, however, a number of major changes were introduced for various policy and
research issues. For example, 2 of the 19 questions contributing to the knowledge score
were eliminated from the questionnaire, while another 3 questions were modified and
demoted from the set of questions contributing to the knowledge metric.

The questionnaire used for the MTN survey is very similar to that used for PUMS-II. It
contained all of the 19 questions related to the knowledge score, however, a number of
other questions have been deleted. In addition, new questions inquiring about different
public education and outreach programs by SSA were added to allow assessment of
their effectiveness. The following table from the contractor’s 1999 report provides a
summary of the composition of these questionnaires.

Table 2. Composition of the Knowledge Indicator Questions For PUMS I, II, III, and
                                    MTN
                                                        Points Possible
     Type of Question
                                   PUMS-I          PUMS-II          MTN         PUMS-III
     Concept questions              17               17              17           13
      Unaided awareness              0                0               0            0
        Aided awareness             17               17              17           13
  Specific factual questions         2                2               2            1
         Total Points               19               19              19           14
   “Knowledgeable” Cut-off          13               13              13           10

Administration/Data Collection

The PUMS-I survey used a total of 19,283 telephone numbers to secure 4,009
completed interviews. While an 80 percent response rate was targeted, a response rate
of only 33 percent was achieved for this survey. Upon conducting a nonresponse
analysis, it was concluded that the resulting survey data were not subject to any
nonresponse bias. No information has been provided regarding the number of
telephone numbers used in each of the other studies, nor have we received any
disposition reports that could be used to develop independent estimates of response
rates for PUMS-II, III, and MTN.

Due to unavailability of technical reports for PUMS-II or PUMS-III, we cannot comment
on whether changes have been introduced with respect to the administration of these

                                               4
surveys. Starting in November 1999 and ending in January 2000, the MTN study was
administered quarterly in 16 communities in Philadelphia, Atlanta, Chicago, and
San Francisco. Each quarter 3,000 surveys were conducted, resulting in 12,000
completed interviews. All surveys were conducted in English and Spanish, with field
periods as summarized in the following table.

              Table 3. Field Periods for PUMS-I, II, III, and MTN Surveys
                      Data Collection               Start Date         End Date
                         PUMS-I                    October 1998     November 1998
                         PUMS-II                  November 1999      January 2000
                          MTN                     November 1999     September 2000
                         PUMS-III                  October 2000      January 2001

The following table provides a summary of the data collection activities, reflecting the
extent of undisclosed information.

              Table 4. Disposition Summary for PUMS-I, II, III, and MTN
   Survey              PUMS-I            PUMS-II              MTN              PUMS-III
Characteristics    Stratified RDD    Stratified RDD       2-Stage RDD       Stratified RDD
    Complete           4,009              4,000              12,000             4,000
   Non-Target          2,832            Unavailable        Unavailable        Unavailable
     Refusal           2,227            Unavailable        Unavailable        Unavailable
  Disconnected         3,576            Unavailable        Unavailable        Unavailable
      Total            19,283           Unavailable        Unavailable        Unavailable
 Response Rate          33%               25.5%            Unavailable        Unavailable

Analysis and Report Generation

Prior to data analysis, survey data were weighted to project the findings to the population
of interest. While improving the demographic representation of the resulting samples,
the weighting process has made it possible to develop national estimates by
compensating for the different regional sampling rates. As stated earlier, the PUMS-I
knowledge metric began with 23 questions (26 possible knowledge points), however, it
was reduced to only 19 questions with 19 possible points. The resulting survey data
were analyzed using a 2-tiered approach: conceptual and factual knowledge.

Overall, the public performed well on the conceptual measure and poorly on the factual
knowledge. Those respondents who could correctly answer 13 of the 19 aided
questions were deemed knowledgeable about SSA. Accordingly, 55 percent of the
public were estimated to be knowledgeable with the SSA services. Moreover, the
following are some of the highlights of the analyses that were performed on the PUMS-I
survey data.

q   Education, age, income, and receiving a Personal Earnings and Benefits Estimate
    Statement were the four most important factors determining respondent’s
    knowledge.
q   There were no regional differences.

                                              5
q       Minorities, including women, indicated less knowledge of SSA programs compared
        to other groups.

Again, because there are no technical reports available for PUMS-II or PUMS-III, we
cannot comment on whether the knowledge rating for these were calculated in a similar
manner. Based on the PUMS-II survey, 57 percent of the public were estimated to be
knowledgeable, which is the same rating obtained for the prior year via the PUMS-I
survey. At the present time, the results from PUMS-III are not available.

Analogous to the PUMS surveys; the data from the MTN survey have been weighted to
represent the demographic composition of the surveyed areas. Subsequently, quarterly
estimates of knowledge ratings were calculated for each area and the Nation. According
to the MTN survey results, it has been concluded that the public in the test areas has a
significantly higher level of knowledge as compared to those in the control areas. This
indicates that the additional efforts by SSA positively affect the public’s knowledge. The
following table summarizes the MTN estimates that have been obtained from the
documents available for our evaluation.

                       Table 5. Knowledge Rating Based on the MTN Survey
                                                              Percent Knowledgeable
                           Location Type
                                                            Quarter I        Quarter IV
                              Treatment                      58%               63%
                               Control                       56%               56%

RESULTS OF EVALUATION

During the period of September 21, 2000 to February 15, 2001, we evaluated the current
processes, systems and controls, which support the FY 2000 SSA performance
measurement process. In addition, we determined the accuracy of the underlying
performance measure data. Our evaluation of the information provided by SSA
management and its contractor allowed us to determine that the preliminary reported
FY 2000 results of the performance measure tested (shown below) was reasonably
stated based on the methodology used by SSA.

                               Performance Measure                                      Reported Result

       11. Percent of public who are knowledgeable about Social                            68 percent2
           Security programs.

However, we did note the following four opportunities for improvement is SSA
methodology:

1. Currently, there are no formal procedures in place to properly reflect the variance
   inflation due to weighting

2. Multicollinearity among the predictor variables may lead to incorrect results

2
    In its April 2001, Performance Plan for Fiscal Year 2002, SSA reported FY 2000 results of 75 percent for this PM.
                                                           6
3. The questionnaire design needs improvement

4. The survey results may be biased due to a significant rate of nonresponse

These items were noted as a result of our testing. We performed an evaluation of the
survey methodology, including the sampling and questionnaire designs, data collection
procedures, and data analysis and reporting. Because this performance measure is
conducted each year, specific attention was given to each annual administration.

1. Currently, there are no formal procedures in place to properly reflect the
   variance inflation due to weighting.

Although producing the basic estimate of the proportion of the population aware of SSA
activities is the primary goal, it is also important to understand how confident SSA can
be in that estimate. Statisticians quantify this by measuring the sampling error in such
estimates. Further, since weighting often increases sampling errors, use of standard
variance calculation formulae with weighted data can result in misleading tests of
significance.3 That is, one might end up declaring significant improvements when the
observed change might be attributable to sampling error. SSA stated that no special
procedures have been used for variance estimation for the PUMS and MTN surveys.
With weighted data, special procedures should be developed and implemented to
properly reflect the variance inflation due to weighting.

In the case of complex sampling designs, such as the ones being used in the surveys of
interest, research has shown that computed variances of survey estimates may under-
represent the induced sampling errors. There are two general approaches for variance
estimation for complex sampling designs involving weights. One is linearization, in which a
nonlinear estimator (the type used in these two surveys) is approximated by a linear one,
and then the variance of this linear proxy is estimated using standard variance estimation
methods.4 The second is replication, in which several estimates of the population
parameters under the study are generated from different, yet comparable parts of the
original sample. The variability of the resulting estimates is then used to estimate the
variance of the parameters of interest.5

SSA should consider using one of these two variance estimation methods for future
surveys.

2. Multicollinearity among the predictor variables may lead to incorrect results.

In order to identify factors that are highly relevant to increasing the knowledge of people
about the services SSA provides, the contractor has used a statistical procedure called
step-wise regression. This procedure, which is a special form of the ordinary regression
analysis, uses the knowledge score as the dependent variable and a list of demographic

3
    Skinner, C., Holt, D. and Smith, T., Eds. (1989). Analysis of Complex Surveys. Wiley & Sons, NY.
4
    Wolter, K.M. (1985) Introduction to Variance Estimation. New York: John Wiley & Sons.
5
 Effron, B. (1982). The Jack-Knife, the Bootstrap, and Other Resampling Plans, CBMS Regional Conference Series
in Applied Mathematics 38, Society for Industrial and Applied Mathematics, Philadelphia.
                                                          7
and other indicators as independent variables. This way, attempts are made to measure
the relative importance of each independent variable in explaining the changes in the
knowledge scores. Specifically, for each factor a measure is calculated that indicates
how important (relevant) that factor is to the knowledge of individuals. However, it can
be argued that the employed regression-based approach for this purpose might not be
robust enough.

Most statistical procedures, such as regression, require that certain conditions be true
for the procedure to perform effectively. All regression analyses involve two sets of
variables: a left hand side variable, which is typically referred to as the dependent
variable, and the right hand variables, which are typically referred to as independent
variables. As the name implies, independent variables are supposed to be independent
of each other for the regression model to produce reliable measures of importance for
each of the independent variables. When this condition is not met, the results of a
regression analysis can be questionable. This common anomaly, which results from the
existing multicollinearity among the predictor variables, can lead to unstable results.
That is, since the independent variables that have been used in this process are
correlated (not independent), small changes can introduce significant fluctuations in the
regression coefficients (i.e., the measure of importance for each factor).

There are well known methods to detect, assess and remedy multicollinearity, and we
reference the book by Belsley, Kuh and Welsch6 on this subject.

3. The questionnaire design needs improvement.

Based on our evaluation of the available questionnaires, we have identified a number of
potential issues with the structure and wording of the questions, as follows:

q   For the MTN questionnaire, the Question 19 series inquires about familiarity with
    three separate sources of receiving information about the SSA programs: news,
    public education, and campaigns. Throughout this series, however, inconsistent
    references are made to these three sources.
q   The question series used within the PUMS and MTN questionnaire dealing with
    usefulness and impact of the SSA statement is based on a screening question (Q24)
    that simply asks respondents whether they have received the statement or not. That
    is, the existing sequence of questions does not determine if they have actually read
    the statement. It is preferable to establish prior reading of the statement, before
    inquiring about its usefulness.

q   The answer categories used within the PUMS and MTN questionnaire to the
    demographic question series can be improved. For example, the employment status
    question does not provide an answer category for students and singles out maternity
    leave from all other types of leaves. This abbreviated set of employment categories
    can also confuse others, such as those disabled individuals who do not consider
    themselves unemployed. The marital status question, on the other hand, has a

6
 Belsley, D.A., Kuh, E., and Welsch, R. E., Regression Diagnostics: Identifying Influential Data and Sources of
Collinearity, John Wiley & Sons, 1980.
                                                         8
   negative connotation to the order of its answer categories: divorced, separated,
   widowed, currently married, and single and never married.
   Based on years of rigorous research, the United States Census Bureau has
   developed answer categories for the demographic type questions. A large number
   of survey research organizations use these categories when designing
   questionnaires. In addition to using a set of meticulously tested standards, use of
   the Census demographic categories enables researchers to use published
   population figures for weighting of survey data.

4. The survey results may be biased due to a significant rate of nonresponse

Initially, it was anticipated that the response rate to these surveys would be at least
80 percent. However, the secured response rates ranged between 25 and 34 percent.
In light of such high rates of nonresponse, it is important to take remedial measures that
would increase the response rate to these surveys. A response rate of 25 percent
means that 75 percent of the targeted individuals have remained uncovered by the
survey. If the group who decided to answer the survey differed, in some substantial
way, from those who did not choose to respond, the results obtained could be far from
the true proportion in the population as a whole. This uncertainty raises doubts about
the credibility or usefulness of the findings of the survey. By weighting the data, SSA
has attempted to remove some of the potential bias due to undercoverage; however, the
employed methodology should be more outreaching. For example, in residential
studies, typically the weighting procedure involves adjustment of the survey data along
demographic and socioeconomic dimensions to make the respondent population match
more closely these demographic or socioeconomic characteristics in the population as a
whole.

According to the Paperwork Reduction Act of 1995 (PRA), Implementing Guide, Chapter
VI Section E, samples that suffer from significant nonresponse cannot support valid
statistical inferences.

The employed weighting process does not adjust the data with respect to any
socioeconomic indicator. It is typical to use income or education as part of the weighting
process.

CONCLUSIONS AND RECOMMENDATIONS

Our evaluation found that the reported FY 2000 results of the performance measure
tested were reasonably stated. However, our evaluation noted various issues with the
2000 survey. We recommend that SSA take the following corrective actions:

1. SSA should obtain documentation to support the employed methodologies, survey
   administration protocols, and analysis made.

2. SSA should measure potential sampling errors in the estimates that reflect the
   employed sampling design, and incorporate the applied weights.



                                            9
3. In order to establish an importance hierarchy among a set of factors, SSA should test
   the robustness of the regression methodology it is using to assure there is no
   multicollinearity. As mentioned above, this can be done by using the Belsley, Kuh
   and Welsch regression diagnostics. If multicollinearity is detected, we suggest
   alternative methods of determining the importance hierarchy such as factor analysis
   and principal components analysis, and we reference the book by Johnson and
   Wichern7 on this subject.

4. SSA should consistently use the same set of information sources (news, public
   education, and campaigns) throughout the questionnaire.

5. SSA should establish prior reading of statements before inquiring about their
   usefulness.

6. SSA should use the employment categories that are used by the Bureau of Labor
   Statistics, instead of the list that is currently used with the PUMS III and MTN
   surveys.

7. SSA should adjust the data with respect to any socioeconomic indicator, and use
   income, or education as part of the weighting process.

APPROPRIATENESS OF THE PERFORMANCE MEASURES

As part of this engagement, we evaluated the appropriateness of each of the
performance measures with respect to GPRA compliance and SSA’s APP. We
determined whether the specific indicators and goals corresponded to the strategic goals
identified in SSA’s APP, determined whether each of these indicators accurately
measure performance, and determined their compliance with GPRA requirements.

Performance Measure #11 aligns logically with the SSA Strategic Plan but still
needs improvement.

The relationship between PM #11 and the applicable SSA Strategic Goal is depicted in
the following figure:




7
    Johnson, R. and Wichern, D., Applied Multivariate Statistical Analysis, Second Edition, Prentice-Hall, 1988.
                                                           10
                                                    SSA Mission
                                To promote the economic security of the nation's people
                                   through compassionate and vigilant leadership in
                                                      h social
                                  and managing America's  i      security programs.




                                                 Strategic "Goal #5"

                                      To strengthen public understanding of the
                                              social security programs




                                                 Strategic Objective
                                        By 2005, nine out of ten Americans will be
                                        knowledgeable about the Social Security
                                            programs in five important areas




                                          Performance Indicators & Goals

                                                 Percent of public who are
                                            knowledgeable about Social Security
                                                        programs




The SSA mission is supported by five strategic goals, including Goal 5, “To strengthen
public understanding of Social Security programs.” Goal 5, in turn, is supported by the
single strategic objective, “By 2005, nine out of ten Americans will be knowledgeable
about the Social Security programs in five important areas.” PM #11 characterizes the
public’s level of knowledge about SSA programs. Assuming that the metric has strong
performance measurement attributes, the diagram indicates that PM #11 logically aligns
with SSA’s strategic planning process.

Based on the taxonomy of performance measures included in Appendix F, PM #11 is a
measure of accomplishment because it reports on a result (public awareness) achieved
with SSA resources. It is further categorized as an outcome measure because it
indicates the accomplishments or results (level of public awareness) that occur because
of the services (public relations) provided. Furthermore, this measure of public
awareness is similar to a measure of “public perceptions.” As shown in Appendix F,
measures of public perceptions are considered as outcome measures.

Within the framework of GPRA, Performance Measure #11 fits the intent of an outcome
measure because it is “…a description of the intended result, effect, or consequence that
will occur from carrying out a program or activity.”8 The intent of this performance
measurement is to gauge public awareness (i.e., the effect) for the activity of providing
8
    OMB Circular A-11 Preparation and Submission of Budget Estimates, Section 200.2.
                                                          11
information to the public. A survey-based measurement of this type can be costly and
takes time to implement. Nevertheless PM #11 is an appropriate and worthwhile GPRA
performance indicator. It can be useful to both management and external stakeholders,
as encouraged by OMB Circular A-11. However, there are a few inherent deficiencies in
the current design of Performance Measure #11 that are worth noting:

Ideally, a performance metric should help the agency take action to affect the
performance of the indicator being measured. In this case, the measurement system will
not provide a clear indication of necessary action; this is because the analytical
component of the public awareness survey is weak, since it utilizes simple statistical
procedures. The performed analyses do not “read between the data lines.” For the
results to be more actionable, more advanced data analysis methodologies should be
used to extract as much intelligence from the data as possible.

Performance Based Budgeting, the ultimate intent of GPRA, is an approach that relates
budgets to outputs, and/or resources to performance. At a high level, this metric is well
suited for performance based budgeting because stakeholders can evaluate the change
in public awareness as a result of changing the total dollars spent on public relations.
Where the current measurement system may fall short, however, is in indicating how
dollars spent on specific types of educational programs or media impact public
awareness. The MTN survey was intended to help clarify this. It is hoped that MTN can
ultimately achieve this objective or that SSA can develop an alternative method for
measuring the effectiveness of specific educational programs or media.

Recommendations

8) For the results to be more actionable, more advanced data analysis methodologies
   should be used to extract as much intelligence from the data as possible.

9) SSA should also work toward the successful implementation of the MTN survey or
   develop an alternative method for measuring the success of specific educational
   programs and/or media.

OTHER MATTERS

As part of this evaluation, we identified an issue that is peripheral to the engagement
but, we believe, warrants SSA’s attention. This point is discussed below.

1. Reporting FY 2001 Results (PUMS III).

While the idea of switching components of a knowledge indicator is not to be
encouraged, it is understandable that, because of changes in policy, the definition of
knowledge can change, requiring modifications to the questionnaire. However, it is
notable that because of the introduced changes (e.g., use of 19 question in PUMS I & II
instead of 14 questions in PUMS III) the knowledge scores have increased significantly,
both for PUMS-I and II. These results are summarized in the following table.



                                            12
 Table 6. Changes in Knowledge Score Due to Changes in Measurement Method
                                            Based on           Based on
           Percent Knowledgeable
                                          19 Questions       14 Questions
                    PUMS-I                     55%                66%
                    PUMS-II                    57%                68%
                    PUMS-III             Data not available Data not available

Upon further evaluation, it appears that the above increase is partially due to elimination
of questions that respondents have commonly scored low. The following table provides
a summary of these questions.

    Table 7. Summary of Questions Eliminated from the Knowledge Metric
                                                                       Percent
                                            Reason for Deletion from
              Question                                                 Correct
                                                Knowledge Score
                                                                      (PUMS-II)
                                         It does not help SSA or the
     Social Security pays for the food
Q3c                                      public to know what services   46%
     stamp program.
                                         SSA does not provide
     What do you think is the youngest
     age someone can retire today,       Confusion about what is
 Q5                                                                     38%
     and start receiving FULL Social     considered “FULL” benefits
     Security retirement benefits?
     Can a person retire early and still
 Q7  receive some Social Security        Undisclosed                    65%
     retirement benefits?
     People on Social Security are
Q14b living longer, so they cost the     Undisclosed                    75%
     program more money.
     There is significant fraud and
                                         Fraud and abuse are complex
Q14d abuse by people who aren’t                                         23%
                                         and hard to interpret
     entitled to benefits
                                    MEAN                                            49%

Recommendation

10) If SSA plans to report the recalculated results for FY 1999 or FY 2000, it should
    ensure that the reported results include a description of the change in the knowledge
    calculation for these 2 years.

Agency Comments

SSA agreed with 9 of the 10 recommendations contained in this report. While agreeing
with recommendation number eight, “…use more advanced data analysis methodologies
to extract as much intelligence from the data as possible….” SSA stated that a lack of
available resources has prevented it from completing more advanced analysis of the
data collected in the PUMS survey. It noted that it is currently recruiting a staff person to
help make such work possible in the future.
                                             13
In disagreeing with recommendation number seven, “adjust the data with respect to any
socioeconomic indicator, and use income or education as part of the weighting process,”
SSA stated that it was satisfied with the procedures it has used throughout the PUMS
survey. It believed that the changes suggested would not be an improvement and would
make comparisons to previous years’ data difficult. The full text of the Agency’s
comments is in Appendix C.

OIG Response

We appreciate the Agency’s comments to this report. The implementation of the
recommendations will help to ensure for the efficient collection and use of the PUMS
survey data.

We believe the data collected through PUMS would be more precise if SSA changed its
current weighting methodology. There is a non-uniform response pattern across
different demographic backgrounds in virtually all surveys. For instance, in household
surveys, there are different response rates when comparing higher educated (more
affluent) individuals with those at lower levels of education. The primary objective of
weighting is to realign the composition of respondents so that they mimic that of the
target population. Knowing that the socioeconomic composition of respondents
(e.g., income or education) is almost always different from that of the target universe, it
would benefit SSA to adjust (weight) the data along such indicators to reduce the skew
that will otherwise bias the results. Key outcome measures of this survey are highly
correlated with income and education. This further argues for adjusting the data with
respect to these indicators, otherwise, the resulting data will be at the mercy of the mix
of respondents they manage to contact. It is understandable that changing (improving)
the weighting process will introduce some difficulties when it comes to comparing
historical data. However, throughout the history of this survey significant changes have
been introduced as deemed necessary; this change could be considered as yet another
necessary adjustment.




                                            14
                           APPENDICES

APPENDIX A – Scope and Methodology

APPENDIX B – Acronyms

APPENDIX C – Agency Comments

APPENDIX D – Performance Measure Summary Sheets

APPENDIX E – Performance Measure Process Maps

APPENDIX F – Performance Measure Taxonomy
                                                                           Appendix A

                       SCOPE AND METHODOLOGY

The Social Security Administration (SSA) Office of the Inspector General (OIG)
contracted PricewaterhouseCoopers to evaluate 11 SSA performance indicators
identified in its Fiscal Year (FY) 2001 Annual Performance Plan (APP). We performed
our testing from September 21, 2000 through February 15, 2001. Since FY 2001
performance results were not yet available as of the date of our evaluation, we
performed tests of the performance data and related internal controls surrounding the
maintenance and reporting of the results for FY 2000. Specifically, we performed the
following:

1. Obtained an understanding of the Public Understanding Measurement System
   (PUMS) surveys.

2. Tested the reasonableness of the survey data.

3. Determined whether performance measures were meaningful and in compliance with
   the Government Performance and Results Act of 1993 (GPRA).

4. Identified findings relative to the above procedures and provided recommendations
   for improvement.

Our engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland.
The procedures that we performed were in accordance with the American Institute of
Certified Public Accountants’ Statement on Standards for Consulting Services, and are
consistent with appropriate standards for performance audit engagements in
Government Auditing Standards (Yellow Book, 1994 version). However, we were not
engaged to and did not conduct an audit, the objective of which would be the expression
of an opinion on the reliability or accuracy of the reported results of the performance
measures evaluated. Accordingly, we do not express such an opinion. Had we
performed additional audit procedures, other matters might have come to our attention
that would have been reported to you.

1. Obtained an understanding of the PUMS surveys.

We obtained an understanding of the underlying process and procedures surrounding
the implementation of the measure through interviews and meetings with the appropriate
SSA and SSA’s contractor personnel. Our evaluation of this performance measure
involved a comprehensive evaluation of the survey methodology, including the sampling
and questionnaire design, data collection procedures, and data analysis and reporting.
Because this performance measure is conducted each year, specific attention has been
given to each annual administration. In this process, we evaluated the following
documents:




                                          A-1
                                                                         Appendix A
q   PUMS-I:

    -   National Report, 1998
    -   Focus Group report, April 1998
    -   Technical Report
    -   Statement of Work

q   PUMS-II:

    -   Contract Requirements, May 1999
    -   SSA’s contractor Technical Proposal, June 1999
    -   Survey Results
    -   Summary of National Results
    -   National Findings, April 2000
    -   SSA Knowledge Indicators

q   Moving the Needle:

    -   Questionnaire
    -   Regional Knowledge Tracking Survey: First Quarter (Nov 1999 – Sep 2000)
    -   Knowledge Tracking Scorecard

q   PUMS-III:

    -   National Survey – Talking Points
    -   Questionnaire
    -   14 Point Knowledge Point Discussion

2. Tested the reasonableness of the survey data.

To ensure the reasonableness of the number reported in the FY 2000 GPRA section of
the SSA Annual Performance and Accountability Report, we evaluated the survey data
for PUMS-I (FY 1999 survey) and PUMS-II (FY 2000 survey). Please note that the
FY 2000 GPRA section of the SSA Annual Performance and Accountability Report only
includes the results of the FY 1999 survey. Our evaluation included replicating the
calculation of the knowledge score based on 26 and then 19 point scales. Once
knowledge scores were calculated for each respondent, we calculated the overall
percent of the population that are considered “knowledgeable.”

As a result of this process, we were able to match those percents reported for PUMS-I
as part the GPRA section, and for PUMS-II on SSA’s internal reports. Moreover, survey
weights were evaluated to ensure proper calculation of various weighting factors.




                                         A-2
                                                                           Appendix A
3. Determined whether performance measures were meaningful and in
   compliance with GPRA.

As part of this engagement, we evaluated the appropriateness of each of the
performance measures with respect to GPRA compliance and SSA’s APP. We
determined whether the specific indicators and goals corresponded to the strategic goals
identified in SSA’s APP, determined whether each of these indicators accurately
measure performance, and determined their compliance with GPRA requirements.




                                          A-3
                                                 Appendix B

                             ACRONYMS

APP    Annual Performance Plan
FY     Fiscal Year
GPRA   Government Performance and Results Act
MTN    Moving the Needle
OMB    Office of Management and Budget
PM     Performance Measure
PUMS   Public Understanding Measurement System
PwC    PricewaterhouseCoopers LLP
RDD    Random Digit Dialog
SSA    Social Security Administration
SSI    Supplemental Security Income
                  Appendix C

AGENCY COMMENTS
                                                       ..,... SEc~'t;.
                                                     {~:i
                                                      Y/'U8A\\~
                                                     '70 101111 I
                                                      ~J""l~<

                                         SOCIAL           SECURITY



MEMORANDUM


           January   2, 2002                                                      Refer To: S 11-3


To'




Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Measure Review: Reliability
           of the Data Used to Measure Public Knowledge ofSSA" (A-O2-0l-11015)-:INFORMATION


           We appreciateOIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Pleaselet us know if we may be of further assistance. Staff questionsmay be referred to
           Dan Sweeneyon extension 51957.

           Attachment:
           SSA Response
                                                                               Appendix C
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE
DATA USED TO MEASURE PUBLIC KNOWLEDGE OF SSA” (A-02-01-11015)

Recommendation 1

Obtain documentation to support the employed methodologies, survey administration
protocols, and analysis made.

Comment

We agree with this recommendation. Gallup has provided to us technical reports for all
Public Understanding Measurement Surveys (PUMS) completed. Gallup will continue to
provide technical reports for every survey they undertake.

Recommendation 2

Measure potential sampling errors in the estimates that reflect the employed sampling
design, and incorporate the applied weights.

Comment

While we are confident that the statistical procedures used have fairly represented the
United States population as a whole, we agree that the procedure could be improved.
Specifically, as suggested by OIG, SSA and the contractor will in the future use software
such as SUDAAN for all formal reporting.

Recommendation 3

Test the robustness of the regression methodology it is using to assure there is no multi-
collinearity. If multi-collinearity is detected, consider alternative methods of determining
the importance hierarchy such as factor analysis and principal components analysis.

Comment

Again, while we are confident that the methodology employed has been satisfactory, we
agree with OIG’s recommendation and will use the SUDAAN software to perform this
function.
                                                                                 Appendix C
Recommendation 4

Consistently use the same set of information sources (news, public education, and
campaigns) throughout the questionnaire.

Comment

As noted in the summary report of the audit findings, this recommendation largely
concerns the questionnaire used in the Move the Needle (MTN) study, which did not
figure in the computation of the national knowledge measure. While this was a “test”
study, we agree that the questions could have been more valuable. As we do additional
surveys that measure the outcome of specific public information campaigns, we will
carefully consider the recommendation.

Recommendation 5

Establish prior reading of statements before inquiring about their usefulness.

Comment

We agree with this recommendation. In the fourth national PUMS survey, respondents
who recalled receiving a Statement were asked the following question:

       Did you:

       1) Glance at the statement
       2) Read it carefully
       3) Not look at it at all

Recommendation 6

Use the employment categories that are used by the Bureau of Labor Statistics (BLS)
instead of the list that is currently used with the PUMS III and MTN surveys.

Comment

Most of the demographic categories used in the PUMS survey process (e.g., ethnicity and
race) are the same as those used in the 1990 Census. However, there are some categories,
such as the employment categories, that differ slightly. We are considering dropping the
employment categories from the PUMS survey. However, if we decide to continue using
them, we will consider using the BLS categories.
                                                                               Appendix C
Recommendation 7

Adjust the data with respect to any socioeconomic indicator, and use income or education
as part of the weighting process.

Comment

We do not agree with this recommendation, as we are satisfied with the procedures we
have used throughout the PUMS surveys. Results of the PUMS survey have been
adjusted to reflect age and race/ethnicity as well as probability of phone contact. We
believe that the changes suggested would not be an improvement and would make
comparison of past years’ data difficult.

Recommendation 8

Use more advanced data analysis methodologies to extract as much intelligence from the
data as possible.

Comment

While we agree with the intent of this recommendation, we must take into account resource
implications. There is no doubt that we could get additional information from the data, but
we have not had the resources to do so. Currently, our analysis centers around questions
about who SSA’s audience is and what they do and do not know. In addition, special
analyses are done to help us understand what factors are associated with knowledgeable
citizens and what types of citizens know which pieces of information. This information has
historically been most pertinent to the regional offices. Additional analysis is completed on
the few Statement questions that exist, although this is not the primary purpose of the PUMS
survey.

The Office of Communications is in the process of recruiting a staff person to perform the
kind of advanced data analysis that OIG suggests.

Recommendation 9

Work toward the successful implementation of the MTN survey or develop an alternative
method for measuring the success of specific educational programs and/or media.

Comment

We agree. The MTN study has proven helpful and we are working with the contractor on a
final report.
                                                                              Appendix C

Recommendation 10

If reporting recalculated results for FY 1999 or FY 2000, ensure that the reported results
include a description of the change in the knowledge calculation for those two years.

Comment

As we noted in the audit conference meeting last August, the changes made to the
knowledge calculation were made solely as a result of our strategic planning process and
the release in August 2000 of SSA’s new strategic plan, “Mastering the Challenge." We
have made this clear in our PUMS III informational materials.
                                  Appendix D

PERFORMANCE MEASURE PROCESS MAP
                                                                                                                       Appendix D

                             PERFORMANCE MEASURE SUMMARY SHEET

Name of Measure                              Measure Type                  Strategic Goal/Objective
Percent of public who are knowledgeable      Percentage                    Goal: To strengthen public understanding of Social
about Social Security Programs.                                            Security programs
                                                                           Objective: By 2005, nine out of ten Americans will be
                                                                           knowledgeable about the Social Security programs in five
                                                                           important areas:
                                                                           · Basic program facts
                                                                           · Financial value of programs to individuals
                                                                           · Economic and social impact of the programs
                                                                           · How the programs are financed today
                                                                           · Financing issues
Purpose                                                                                                  Survey Frequency
To assess the percent of the public who are knowledgeable about Social Security Programs,                Annually
SSA will perform an annual Public Understanding Measurement System (PUMS) survey.
Target Goal                                  How Computed                                   Data Source
65%                                          Respondents who could correctly answer         PUMS
                                             13 of the 19 aided questions were deemed       MTN
                                             knowledgeable about SSA.
Designated Staff Members                                        Division
Rusty Toler                                                     Office of Communication
Bernie Gonzales
Lisa Jones




                                                          D-1
                                                                                                                                Appendix D

Testing and Results
Our evaluation of this performance measure involved an evaluation of the survey methodology, including the sampling and questionnaire
designs, data collection procedures, and data analysis and reporting. To obtain an understanding of PUMS, we evaluated the following
documents:

·   PUMS-I: National Report, 1998; Focus Group report, April 1998; Technical Report; and Statement of Work.
·   PUMS-II: Contract Requirements, May 1999; Survey Results; Summary of National Results; National Findings, April 2000; and SSA
    Knowledge Indicators.
·   Moving the Needle: Questionnaire, Regional Knowledge Tracking Survey: First Quarter (Nov 1999 – Sept 2000), and Knowledge Tracking
    Scorecard
·   PUMS-III: National Survey – Talking Points, Questionnaire, and 14 Point Knowledge Point Discussion


To ensure the reasonableness of the number reported in the FY 2000 GPRA section of the accountability report, we performed the following:
·   Replicated the calculation of knowledge score based on 26 and then 19 point scales.
·   Once knowledge scores were calculated for each respondent, we calculated the overall percent of population that were considered
    “knowledgeable”.
·   Evaluated survey weights to ensure proper calculation of various weighting factors.


Refer to “Results of Evaluation” for a description of the findings.




                                                                      D-2
                                                                                                                                                                     Appendix E
                                                                               Performance Measure # 11


                                                        Goal #5 is to strengthen public understanding of the Social Security Programs.
  SSA developed the Public Understanding
  Measurement System (PUMS) to establish
                                                                                                                                                SSA hired a contractor to perform a
  baseline data on the public's knowledge of Social
                                                                                                                                                one-year knowledge tracking study known
  Security programs, and to track changes in the
                                                                                                                                                as the "Move the Needle" study.
  public's level of knowledge through the year
  2005. The PUMS initiative will provide data
  needed to design annual public education
  programs.



                                                                            Develop Sample
     Establish Survey                                                                                                                                                     Prepare and Distribute
                                           Design Survey                     selection and                Administer Survey              Collect and Analyze Data
        objectives                                                                                                                                                           Report Results
                                                                             methodology


Details:

                                                                                                        Study carried out in
                                       Similar in design to the                                         sixteen communities
To measure the impact of                  National PUMS I                In consultation with                                            Treatment and control           The contractor
the Social Security                                                      SSA, the contractor            located in the                   site results were paired
                                       research performed in                                                                                                             distributed results to
Statement mail-out                                                       developed a                    Philadelphia, Atlanta,           to allow meaningful
                                                 1998                                                                                                                    regions and treatment/
                                                                         probability sample             Chicago, and San                 comparisons                     control sites
                                                                         design stratified by           Francisco SSA regions
                                                                         site.

                                                                                                                                         The contractor defined
To measure the increase                Survey instruments                                               12,000 respondents
                                                                                                                                         knowledgeable as
in public knowledge due to             were developed through                                           were surveyed quarterly
                                                                                                                                         correctly answering
increased outreach efforts             a collaborative effort                                           (3,000 per quarter),
                                                                                                                                         atleast 13 of the 19
                                       between the                                                      achieving an
                                                                         Used sample of                                                  knowledge indicator
                                       contractor's survey                                              undisclosed response
                                                                         undisclosed size to                                             questions
                                       design experts and                                               rate
                                       SSA officials                     reach target number of
                                                                         interviews.
To ensure that treatment
areas receive additional                                                                                                                 For comparison
outreach activities                                                                                                                      purposes, the contractor
                                       National Academy of                                                                               used the identical
                                       Social Insurance (NASI)                                                                           statistical analysis and
                                       and academic experts                                                                              methodology approved
                                       were consulted during                                                                             by SSA in the 1998
                                       the survey design                                                                                 PUMS survey and report
                                       phase
                                                                                                                                                                                                   Appendix F

                                                                         PERFORMANCE MEASURE TAXONOMY


                                                                                        Categories of Performance Measures:

Efforts are the amount of financial                                                                                                                                                          These indicators measure the
and nonfinancial resources (in                                                                                                                                                               resources used or cost (for
terms of money, material, and so
                                                                                                                                                                  3) Measures that           example, in dollars, employee-
                                         1) Measures of                                             2) Measures of
forth) that are put into a program                                                                                                                                Relate Efforts to          hours, or equipment used) per
or process. Measures of service              Efforts                                               Accomplishments                                                                           unit of output. They provide
efforts also include ratios that
                                                                                                                                                                  Accomplishments            information about the production
compare financial and                                                                                                                                                                        of an output at a given level of
nonfinancial resources with other                                             Accomplishment measures report                                                                                 resource use and demonstrate an
measures that may indicate                                                    what was provided and achieved                                                                                 entity's relative efficiency when
potential demand for services,                                                with the resources used.                                                                                       compared with previous results,
such as general population,                                                                                                                                                                  internally established goals and
service population, or lane-miles                                                                                                                                                            objectives, generally accepted
                                                                                              Outputs measure the quantity of services provided;
of road.                                                                                                                                                                                     norms or standards, or results
                                                                                              outcomes measure the results of providing those
                                                                                                                                                                                             achieved by similar jurisdictions.
                                                                                              outputs.


                                                                                                                                                                                       Cost–outcome measures that
  Financial Resources That are
                                                                                                                                                                                       relate efforts to the outcomes
  Put into a Program or Process                                                       Output                                                                                                or results of services
                                                                                     Measures


  Non-Financial Resources That                                                                                                                     Outcome                               Efficiency Measures That
     Are Put Into A Program                                                                                                                        Measures                              Relate Efforts To Outputs
          Or Process                                                                                                                                                                             Of Services

                                                                                                                                         These indicators measure
                                                  Quantity of a Service                                                                  accomplishments or results that occur (at
                                                  Provided that Meets a                              Quantity of a Service               least partially) because of services
                                                                                                                                         provided. Results also include measures
                                                     Certain Quality                                      Provided
                                                                                                                                         of public perceptions of outcomes. For
                                                      Requirement                                                                        example, measures may include the
                                                                                                                                         percentage of students achieving a
                                                                                                                                         specified skill-level gain in reading; the
                                      These indicators measure the physical quantity of          These indicators measure the
                                                                                                                                         percentage of the population being served
                                      a service provided that meets a test of quality. For       physical quantity of a service
                                                                                                                                         by public transportation; the percentage of
                                      example, measures may include the percentage of            provided. For example, measures
                                                                                                                                         lane-miles of road in excellent, good, or
                                      students graduated or promoted who have met a              may include the number of
                                                                                                                                         fair condition; and the clearance rate for
                                      minimum prespecified standard of achievement;              students promoted or graduated;
                                                                                                                                         serious crimes or the percentage of
                                      the percentage of buses meeting a prespecified             the number of passenger miles
                                                                                                                                         residents rating their neighborhood as
                                      on-time standard of achievement; the percentage            provided by public transit; the
                                                                                                                                         safe or very safe.
                                      of lane-miles of road repaired to a certain minimum        number of lane-miles of road
                                      satisfactory condition; and the percentage of              repaired; and the number of crimes                        Adapted from GPRA, GASB Concept No. 2, and the
                                      criminal investigations performed that result in the       investigated.                                           "Performance Measurement for Government" web site at
                                      identification of a prime suspect.                                                                                                  Rutgers University
                                                                                                                                                         www.rutgers.edu/Accounting/raw/seagov/pmg/index.html
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
